ll

1

1

!!

Ansi&nsLyX__ h.

•:

i!
II
\\

i

ll
Pi

■ 1

i

r
i!

If

II
rj

i

(
■

i

4

\) (V
IN THE COURT OF APPEALS OF THE STATE OF OREGON

^\ A>£

f

^ O 1

HAMID MICHAEL HEJAZI,
Plaintiff-Appellant,

v.
ROBERTO RIOS, EUGENE POLICE DEPARTMENT, LANE COUNTY and CITY OF
EUGENE,
Defendants-Respondents.

Lane County Circuit Court No. 20CV18183
Court of Appeals No. A174947
ORDER DENYING MOTION FOR FEE WAIVER OR DEFERRAL;
ORDER OF DISMISSAL
With respect to the motion to waive appellate court filing fees, under ORS
21.682, the court "may waive or defer all or part of the fees and court costs payable to
the court by a party in a civil action." (Emphasis added.) However, given all of the
circumstances, including the number of civil appeals which have been filed by appellant
only to be dismissed by the court for various reasons and lack of any colorable claim of
error here, the court declines to waive appellant's filing fees in this civil case. The
motion to waive appellate court filing fees is denied.
On November 10, 2020, appellant filed a notice of appeal from a general
judgment dismissing the case for lack of service, entered October 13, 2020. Under
ORS 19.255, a notice of appeal must be served and filed within 30 days after the date
the judgment is entered. And, under ORS 19.270(2), timely service of the notice of
appeal on all parties identified in the notice of appeal as adverse parties is jurisdictional
and may not be waived or extended. By appellant’s own admission, the notice of
appeal has not been served on the respondents identified in the notice of appeal. Any
attempt at serving respondents now would be weli past the 30 days after entry of
judgment requirement
Therefore, that ground, the court on its own motion dismisses the appeal.
Appeal dismissed

THERESA M. KIDD
APPELLATE COMMISSIONER
12/17/2020 12:04 PM

ORDER DENYING MOTION FOR FEE WAIVER OR DEFERRAL;
ORDER OF DISMISSAL
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 2

\

I

1

<i

I

II
K

i!
I

A

i

;i
li
II
r

j

il
*1

i

i:

j

•«
i

e^v\ A \

v

Pi

IN THE SUPREME COURT OF THE STATE OF OREGON
HAMID MICHAEL HEJAZI
Plaintiff-Appellant,
Petitioner on Review,
v.
ROBERTO RIOS, EUGENE POLICE DEPARTMENT, LANE COUNTY and CITY OF
EUGENE,
Defendants-Respondents,
Respondents on Review.
Court of Appeals
A174947
S068439
ORDER DENYING REVIEW
Upon consideration by the court.
The court has considered the petition for review and orders that it be denied.

MARTHA L WALTERS
CHIEF JUSTICE, SUPREME COURT
5/20/2021 10:49 AM

c: Lauren A Sommers
H Andrew Clark
wHamid Michael Hejazi
jr

ORDER DENYING REVIEW
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

